           ."




 Department of Health and Human Servces
         OFFICE OF
    INSPECTOR GENERAL




PAYMENTS FOR ENTERAL NUTRITION:
  MEDICARE AND OTHER PAYERS




                , SERVICE..


                              JU   GilBS BROWN
                              Inspector General
                                   MAY 1996
            b'd3Q
                                 OEI-03-94-0021
                       OFFCE OF INSPECfOR GENERA
The mission of the Office of Inspector General (OIG), as mandated by Public Law 95- 452 , as
amended , is to protect the integrity of the Department of Health and Human Servces ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits , investigations , and
inspections conducted by three OIG operating components: the Offce of Audit Servces , the
Offce of Investigations , and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.



                           OFFCE OF AUDIT SERVICE
The OIG' s Offce of Audit Servces (OAS) provides all auditing servces for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carryng out their respective responsibilties and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                           OFFCE OF INTIGATIONS
The OIG' s Office of Investigations (01) conducts crimnal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
admiistrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AN INSPECfONS
The OIG' s Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress , and the public. The findings and recommendations contained in these inspection
reports generate rapid , accurate , and up- to- date information on the effciency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Philadelphia
Regional Office under the direction of Robert A Vito , Regional Inspector General.


PHIELIl REGIONAL STAF                                 HEQUARTES STAF
Linda M. Ragone Project Leader                        Mary Beth Clarke Program Specialist
Cythia Hansford    Program Assistant



To obta copies of th report pleas ca the Phiadelphia Regional Offce at (80) 531-9562
           ~"'




 Department of Health and Human Servces
         OFFICE OF
    INSPECTOR GENERAL




PAYMENTS FOR ENTERAL NUTRITION:
  MEDICARE AND OTHER PAYERS




             , SERVJC'l"


                           JU   GilBS BROWN
                           Inspector General
                                MAY 1996
             lod.
                              OEI-03-94-0021
                  EXECUTIVE SUMMAR Y

PUROSE
To assess the appropriateness of Medicare s reimbursement methodology for enteral
nutrition products.

BACKGROUN
Enteral nutrition products are usually liquid formulas that provide nourishment
directly to the digestive tract of patients who cannot ingest an appropriate amount of
calories to maintain the weight and strength commensurate with their overall health
status. In 1994 , the Medicare total allowed amount for enteral nutrition products and
supplies was over $680 milion. For enteral nutrition products alone , the Medicare
program allowed over $330 milion.

To assist in their evaluation and application of Medicare coverage and pricing policy,
the Health Care Financing Administration (HCFA) requested the Offce of Inspector
General (OIG) to survey other payers about their enteral nutrition coverage and
reimbursement policies. We previously reported on coverage policies in a separate
              Coverage of Enteral Nutrtion Therapy: Medicare and Other Payers
report entitled

(OEI- 03-94- 00020) .

For the purposes of comparing pricing information, we surveyed other payers (health
care insurers , Medicaid agencies , and the Department of Veterans Afairs) and retail
pharmacies.

FIINGS
For three enteral nutin prodcts, payers usg competitie acquisn strateg
reibursed less than Medicare fee-far-servce. Three tradnal fee-for-service payers
fared no better than Medicare in obtaining the best prices avaiIble.
Six out of nine payers who provided detailed pricing information in our survey
reimbursed less than Medicare fee- for -servce for three enteral nutrition products:
Ensure , Osmolite , and Glucerna. These payers reimbursed on average 48, 23 , and 17
percent less than Medicare fee- for-servce for these three respective products. Five of
these payers negotiated contract prices with suppliers , taking advantage of discounts
that can be achieved through competitive acquisition.

Unlike Medicare fee-for-servce, most other payers we surveyed used competitive
bidding or limited the number of contracted suppliers that could provide servces to
their members. The three payers who fared no better than Medicare in obtaining the
best prices--a Blue CrosslBlue Shield plan using Medicare s fee schedule , and two
State Medicaid agencies-- did not utilize competitive acquisition.
Retail pharmcie charge less than Medicare allws for two enteral nuttin prodts.

Almost all of the retail pharmacies surveyed charged less than Medicare fee-for­
servce allowances for Ensure and Ensure Plus. Ninety- three percent of the retail
pharmacies charged less than Medicare reimburses for Ensure. Ninety-eight percent
of retail pharmacies in our survey charged less for Ensure Plus than Medicare allows.
We surveyed pharmacies about their prices for these two products because they are
the enteral nutrition products most commonly stocked in retail stores.

RECOMMNDATION
We believe that information from this report and a previous OIG report entitled
Payment for Enteral Nutrtion Therapy Services Billed During Nursing Home Stays (OEI-
06-92- 00861) raise concerns about the appropriate payment for enteral nutrition under
Part B of the Medicare program.

Recommendations from our previous enteral nutrition report focused on Medicare
reimbursement for beneficiaries living in nursing homes. However , we are also
concerned that Medicare reimbursement for beneficiaries receivig enteral nutrition at
home may not be appropriate. In light of the savings that could be achieved if
Medicare re-evaluated its fee-for-servce reimbursement policy for enteral nutrition
we recommend that HCFA consider one of the following.

          Reduce payments for enteral nutrtion, either across the board or for certain
          categories of enteral nutrition products.



          Use enteral nutrtion as one of the fist product tyes to acquie under new
          competitie acquiition strtegies. We understand that HCFA is planning a
          demonstration project involving competitive bidding for durable medical
          equipment , prosthetics , orthotics , and supplies in Southern Florida , and has
          long sought the legislative authority to use such strategies for certain medical
          equipment and supplies. Through demonstrations or expanded legislative
          authority from the Congress , we suggest that HCFA use opportunities as they
         become available to acquire enteral nutrition products through competitive
          acquisition strategies.

AGENCY COMMNT

Both HCFA and the Assistance Secretary for Planning        and Evaluation concurred with
our recommendation. The HCF A stated that currently the calculation for determinng
Medicare s payments for enteral nutrition products is mandated by legislation.
However, HCFA reported that the President's Balanced Budget proposal includes
provisions to freeze parental and enteral nutrition prices at 1993 levels until the year
2002. The proposal would also require the Secretary to competitively contract for
certain servces and supplies including enteral nutrients.
                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




                      TABLE OF CONTENTS

                                                                                                                    PAGE



EJCU                                   .......................................... i

INODUCTON .                                                                                        . . . . . . . . . . . . . 1

FININGS. .                                                                              . . . . . . . . . . . . . . . . . 5

  . Medicare s fee- for-servce         allowance compared to other payers. . . . . . . . . . . . .                          5



  . Most other payers use         competitive acquisition or limit suppliers . . . . . . . . . . . . 6


  . Retail pharmacies charge less than Medicare                       . . . . . . . . . . . . . . . . . . . . . . . . . . 7

RECOMMNDJ\TION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

APPENDIX A .......................................... ........ A-

                          INTRODUCTION€
PUROSE
To assess the appropriateness of Medicare s reimbursement methodology for enteral
nutrition products.



BACKGROUN
Medicare covers enteral nutrn   prodts unr the Part B prosthetic deice bent.
Medicare Part B guidelines classif enteral nutrition under the prosthetic device
benefit because coverage is limited to patients with a functioning gastrointestinal tract
who have a permanent non-function or disease of the structures that normally permit
food to reach the tract. Enteral nutrition products are usually liquid formulas that
provide nourishment directly to the digestive tract of patients who cannot ingest an
appropriate amount of calories to maintain the weight and strength commensurate
with their overall health status. The three most common methods of adminstration
for enteral nutrition products are: nasogastric tube inserted through the nostri
gastrostomy tube inserted through a surgical incision leading to the stomach , and
jejunostomy tube inserted through a surgical incision leading to the small intestine.

Medicare allwed over $680    min    dollrs in enteral   nutin reiburemet      in 1994.


In 1994 ,
        the Medicare total allowed amount for enteral nutrition products and supplies
was over $680 milion. For enteral nutrition products alone , the Medicare program
allowed over $330 milion. Medicare s allowed amount includes the 80 percent that
the Medicare program pays directly to the supplier and the 20 percent copayment for
which the beneficiary is responsible.

The Health Care Financing Administration (HCFA) administers the Medicare Part B
program. In October 1993 ,      HCFA designated four Durable Medical Equipment
Regional Carriers (DMERCs) to process claims for durable medical equipment
prosthetics , orthotics , and supplies , including enteral nutrition. Each DMERC is
responsible for a specifc region of the country and processes claims for Medicare
beneficiaries residing in the region. The DMERCs are also responsible for issuing
medical coverage policies that outline coverage and payment guidelines for covered
servces. The DMERCs have recently updated their enteral nutrition policies effective
July 1 , 1995.



To assist in their evaluation and application of Medicare coverage and pricing policy,
HCFA requested the Offce of Inspector General (OIG) to survey other payers about
their enteral nutrition coverage and payment policies. An earlier OIG report
Coverage of Enteral Nutrtion Therapy: Medicare and Other Payers (OEI- 03- 94- 00020),
provided a comparison of Medicare coverage policies to those of other payers.
Medicare   clasi enteral nutrn prodts into diferent categories and reiburses
based on those categori.


Medicare classifies enteral nutrition products into six categories based on the
composition and source of ingredients in each product. According to the DMERCs
policies , Category I semi-synthetic protein products are appropriate for the majority of
patients requiring enteral nutrition. The guidelines state that if a physician prescribes
a product from Categories II through VI, the medical necessity of these special
product must be justified through documentation. If the request for a higher category
product cannot be substantiated , payment is based on the allowance for the least
costly alternative. For Categories I , II, III, and VI there is a single reimbursement
amount for all the products that fall within each of the categories. In Categories IV
and V, a specific price for each individual brand of product has been established.
Medicare reimburses based on the units of enteral nutrition product used and defines
a unit as 100 calories of enteral nutrition product. The categories of products , their
composition , and Medicare reimbursement amounts are listed in Table 1.




       Category I                   Semi -synthetic intact
                                   protein/protein isolates

                            Natural intact protein/protein isolate          1.43
       Category II              Intact protein/protein isolates
                                      (calorically dense)
      Category II              Hydrolyzed protein/amino acids               1.74
      Category IV               Defined formulae for special         varies by product
                                      metabolic need
       Category V                  Modular components                varies by product
                                (protein , carbohydrates , fat)
      Category VI                  Standardized Nutrients                   1.24



METHODOLOGY

For the purposes of comparig pricing information , we surveyed both Medicare and
non-Medicare payers and retail pharmacies. We used Medicare s allowed amount for
this comparison. The allowed amount includes the 80 percent the Medicare program
pays directly to the supplier and the 20 percent copayment for which the beneficiary is
responsible.
Survey of Payers

Using a standardized data collection instrument , we obtained information on each
payer s coverage and payment policies. We also asked respondents to provide specific
prices for four enteral products. The four products were selected based on discussions
with the DMERCs concerning the most frequently used enteral nutrition products by
Medicare beneficiaries. Three of these products , Ensure, levity, and Osmolite are
classified as Category I products by Medicare. The fourth, Glucerna, is considered a
Category IV product. The information from payers was collected between September
of 1994 and August of 1995.



We surveyed Medicare contractors to assess payment policies for beneficiaries under
fee-for-servce and managed care arrangements. The four DMERCs were surveyed as
representatives of Medicare fee- for-servce and five of the largest Medicare risk-
contracted health maintenance organizations (HMOs) were selected as examples of
Medicare managed care programs.

For our non- Medicare   payers , we selected both fee-for-servce and managed care
payers. These payers were broken down into five groups. We selected the five largest
payers from four of the five groups based on enrollment population. These four
groups were: State Medicaid Agencies , Blue CrosslBlue Shield Associations (BCIBS),
private HMOs , and private co=ercialjindemnity insurers. For the fifth group, we
randomly selected five Department of Veterans Afairs (VA) facilities located in the
same States as the Medicaid agencies in our sample.

We surveyed a total of 34 payers and received responses from 26. However , only nine
respondents (other than the DMERCs) provided actual pricing information. Our
analysis is based on the information from the payers listed in Table 2.

                                           Table 2




   State Medicaid Agencies
   Department of Veterans Affairs (VA) Facilities
   Blue Cross/Blue Shield Associations
   Private HMOs
   Private Indemnity/Commercial Insurers
Surey of Retail Pharmcie

Using a standardized data collection instrument , we contacted retail pharmacy stores
in four States to determine their prices for two enteral products , Ensure and Ensure
Plus. These two enteral nutrition products are the ones most commonly stocked by
larger retail pharmacy chain stores. We purposefully selected four States      (California
Florida , Montana , and Delaware) for which statewide information on pharmacies was
available through our Offce of Audit Servces. For each State , we randomly selected
35 pharmacies. Ninety-six percent of the pharmacies in our survey (134 of 140)
provided pricing information to us. The responding pharmacies were in a mix of both
rural and urban areas with 27 percent located in rural areas. The survey information
was collected in March of 1995.


This inspection was conducted as part of Operation Restore Trust (ORT). The
initiative, focused in five States , involves multi- disciplinary teams of State and Federal
personnel seeking to reduce fraud , waste , and abuse in nursing homes , hospices , home
health agencies , and by durable medical equipment suppliers.


This inspection was performed in accordance with the
                                                        Quality Standards for Inspections
issued by the President's Council on Integrity and Effciency.
                                         FINDINGS€
For three enteral    nun prots, payers usg competitie acquistion strategi
reimured les than Medicare             fee-for-serce. Three traditnal fee-for-serve payers
fared no better than Medicare in obtaining the best pries avaiIble
Six out of nine payers who provided detailed pricing information reimbursed less than
Medicare fee-for-servce for three enteral nutrition products: Ensure , Osmolite, and
Glucerna. These payers reimbursed on average 48 ,               23 , and 17 percent less than
Medicare fee-far-servce for these three respective products. For a fourth product
levity, six payers paid mare than Medicare fee-far-servce, one paid the same , and two
paid less. The amount that each payer reimbursed for all four products is outlined in
the table below. Ensure , levity, and Osmolite are Category I products for which the
Medicare fee- for-servce reimbursement rate is $0. 61 per 100 calories. Medicare
allowances totalled $244 milion far Category I products in 1994. Glucerna is a
Category IV product for which Medicare fee-for-servce allows $1.09 per 100 calories.
Medicare allowed almost $27 milon for Glucerna in 1994.

                                                  Table 3


      Type of Payer                      Cost of Enteral Product Per 100 Caories€




                              $0.32 - 0.45€ $0.42 - 0.47€ $0. 38       - 0.43
   $0. 68 - 0.€
 Medicare Risk€
                              $0.€               $0.€           $0.€             $0.€
 Contract HMOs
                              $0. 51   - 0.54
   $0. 66 - 0.€   $0.59 - 0.€      $1.08 - 1.4€
                              $0.€               $0.€           $0.€             $1.€
 Medicaid States
                              $0.€               $0.€           $0.€             N/A€
                              $0.€               $0.€           $0.€             $1.52€
 Veteran Afairs
              $0.€               $0.€           $0. 13 - 0.€     $0.€
 Acquisition Center
 Blue CrosslBlue
             $0.                $0.            $0.              $1.09
 Shield
 Private HMO                  $0.                $0.            $0.              $0.
  This amount does not include the 5 to 10 percent manufacturer s drug rebate that this State receives.
2 Paid based on the lesser of the biled amount, the Medicare fee schedule
                                                                          , or the expendable medical
  supplies acquisition fee.
Payers that negotiated contract prices with suppliers reimbursed less than Medicare
fee-for-servce. All five of the payers that negotiated contracts with suppliers had
lower reimbursements for enteral nutrition products than Medicare fee-far-servce.
These payers took advantage of discounts that can be achieved through using a
competitive acquisition strategy.

While the DMERCS provide reimbursement for Medicare fee-for-servce based on an
amount calculated using customary and prevailing charges , the Medicare risk-
contracted HMOs differed considerably in their payment methodologies from
Medicare fee-for-servce. All three negotiated prices with suppliers or directly with
the manufacturer. Two of the Medicare HMOs based this contracted price on an
industry standard price such as A   WP (average wholesale price) less a percentage of
AWP (e. , AWP - 10 percent). The AWP is a standard industry price that is usually
the published suggested wholesale price obtained from the manufacturer of the
product.

The Department of Veteran Afairs and the private HMO that reported
reimbursement rates lower than Medicare fee- for-servce also used contracted rates to
reimburse for enteral nutrition products. Both the VA Acquisition Center and the
HMO negotiate directly with manufacturers or suppliers to achieve the best price for
these products.

Only one of the four fee-for-servce payers , a Medicaid agency, reimbursed at a rate
lower than Medicare fee-far-servce. Another fee-far-servce payer (a Blue CrosslBlue
Shield plan) paid the same as Medicare fee-for-servce since its reimbursement is
based on the Medicare fee schedule. The remaining fee- for-servce    payers (two
Medicaid agencies) reimbursed more than Medicare far enteral nutrition products.

The Medicaid payers used a number of payment strategies. Far two Medicaid payers
they reimbursed the lesser of 1) the provider s usual and customary charge or 2) the
wholesale acquisition cost (WAC) plus a standard percentage (7 or 50 percent). The
acquisition cost represents the cost that the pharmacy or other tye of supplier was
charged when purchasing the product. In addition , one of these Medicaid States adds
a pharmacist dispensing fee to this amount. This same State receives a drug rebate
amount of 5 to 10 percent from the manufacturers of enteral nutrition products. The
third Medicaid payer reimburses the lower of either A WP minus 5 percent or direct
price and then adds a 50 percent mark-up.



Unlik Medicare    fee-for-servce, most other payer used competie acquisn to
purhae enteral nutin       prodts or limited the number of suppli wJw provided
enteral nutrn produts.

Although only nie   of the 22 non-Medicare fee-far-servce payers provided dollar
amounts for enteral nutrition reimbursement, other payers did provide their payment
methodologies and delivery systems for enteral nutrition products. While we cannot
assess whether their payment methodologies resulted in lower reimbursement prices
for enteral nutrition products , we did find many of these payers placed some kind of
control on the purchasing or supplying of enteral nutrition products.

While both the DMERCs and Medicare risk-contracted HMOs provide
reimbursement to suppliers under the Medicare program , all four risk-contracted
HMOs limit whom they will reimburse as part of their managed care programs. The
DMERCs allow the Medicare beneficiary to choose their own supplier , as long as the
supplier is registered with the National Supplier Clearinghouse to provide servce for
Medicare reimbursement. In contrast , the Medicare risk-contracted HMOs limit their
reimbursement to a smaller number of contracted suppliers or in- house pharmacies.

Except for Medicaid , most of the non-Medicare payers also limit their plan members
to a few contracted suppliers. All four of the private HMOs contract with specific
suppliers. One of these HMOs contracts with manufacturers and then provides
enteral nutrition products through their in-house pharmacy and dietary servce. Two
of the commercial/indemnity payers use only contracted suppliers; the third will
reimburse any supplier the plan member chooses under its indemnity . plan. Local VA
facilities provide enteral nutrition only through contracted suppliers or manufacturers.
Both BCIBS payers have multiple contracted suppliers but one wil also reimburse any
supplier the plan member chooses. Unless recipients are enrolled in managed care
plans , all but one of the Medicaid payers will reimburse any enrolled Medicaid
provider for enteral nutrition products. The remaining Medicaid payer reimburses
both contracted suppliers and any enrolled provider.

Retail pharmci charge less than Medcare allws for two enteral nutrn proucts.

Almost all of the retail pharmacies surveyed charged less than Medicare fee-for-
servce reimbursement for
Ensure and Ensure Plus. We
surveyed pharmacies about their             Most Pharmacies ' Prices Are Less Than
prices for these two products                Medicare Reimbursement for Ensure
because they are the enteral                                     Medicare Reimburses at $0.
nutrition products that would        60..
                                             Percent of PharmacIes
                                             _mm_mm.mmmm....mm""'''''''''''''''''''''''''''''''''''''mmmnnmnuunmm..n.",.
most likely be found in retail                                                  62"
                                              hnmmunonm..mm..                             ""'''''''''''''''''''''''''''..mnmnmmmmmn
stores.                              60..


                                     40..
                                             nmmunonmmm------                             ""''''''''''''''''''''''''''''''--mmnmmmmn
Ninety-three percent of the                  ....m......................                  mmmonmm.m,.m,_,",............................
                                     30'1
retail pharmacies charged less
than Medicare reimburses for                                                                                         u............................

Ensure. The prices that              1010 ...
pharmacies charged for Ensure
are aggregated in the chart on               Lea. than $0.        60 $0. 60      - $0.   66 $0. 68 - $0.                  $0. 61 or Mora
the right. Ensure is a Category
                                           Price Per 100 Calorle8 of Ensure
                                   80UfOlI 1;;6 Rllan Pharm8G) Survey

I product for which Medicare
fee-for-servce allows $0. 61 per
100 calories. Seventeen percent
of pharmacies charged at least 20 percent less than the $0. 61 that Medicare allows.€
More than half of all pharmacies (52 percent) charged between 10 and 20 percent less
than Medicare reimburses.

Ninety-eight percent of retail pharmacies in our survey charged less for Ensure Plus
than Medicare fee-for-servce allows. Ensure Plus is classified by Medicare as a
Category II enteral nutrition product and is reimbursed at $0. 51 per 100 calories. The
                                                                   chart on the left summarizes the
                                                                   prices charged by retail
     Most Pharmacies ' Prices Are Less Than pharmacies for Ensure Plus.
     Medicare Reimbursement for Ensure Plus Five percent of pharmacies
                   Medicare Reimburses at $0.                      charged at least 30 percent less
      Percent 01 Pharmao!08
   aD'l
                            '''''''''''..u Uumnnunmmmnmmmmnmmmmnm	 for Ensure Plus than Medicare
                                                                                fee-for-servce.   Nearly 40
                                                                                percent of pharmacies charged
   40% ..                                                   ''''....mm..m....   at least 20 percent below
                                                                                Medicare allowances. Almost€
   30% on
                                                                                half of the pharmacies surveyed
   20% ..                                "...n                                  (47 percent) charged between
    10% n                                                                       10 and 20 percent less than
                                                                                Medicare reimburses.
     0..
           Lese than $0. 42 $0. 42 - $0. 46 $O. U - $0. 60 $0.61 or More
                         Prloe Per 100 Calorlell of Ensure Plue                 In addition to these prices for
 Source. '9145 Retail Pharmaoy 8urvey€
                                                                                single units of Ensure and
                                                                                Ensure Plus , 7 percent of€
                                                       pharmacies charge even less
when customers purchase in large volume such as cases of products. Also , 3 percent
of pharmacies offered an additional discount to senior citizens.
                                   RECOMMENDA TION€
We believe the payment practices detailed in this report fulfill HCFA's request for
information on other payers '                     payment methodologies. In addition , we believe that
information from this report and a previous OIG report entitled    Payment for Enteral
Nutrtion Therapy Services Billed During Nursing Home Stays (OEI- 06-92-         raise      00861)

concerns about the appropriate payment for enteral nutrition under Part B of the
Medicare program. Our fidings , in this report , show that a consumer can walk into a
retail pharmacy and purchase at least two enteral products at lower rates than
Medicare fee-for-servce allows for these products. We also found that other payers
including Medicare-contracted HMOs , reimburse less for enteral products than
Medicare fee-for-servce and that these lower payments are usually the result of
negotiated contracts with suppliers of enteral nutrition products.

Recommendations from our previous enteral nutrition report focused on Medicare
reimbursement for beneficiaries livig in nursing homes. However, we are also
concerned that Medicare reimbursement for beneficiaries receiving enteral nutrition at
home may not be appropriate. In light of the savings that could be achieved if
Medicare re-evaluated its fee-for-servce reimbursement policy for enteral nutrition
we recommend that HCFA consider one of the following.

           Reduce payments for enteral nutrtion, either across the board or for certain
           categories of enteral nutrition products.



           Use enteral nutrtion as one of the fit product tyes to acquie under new
           competitie acquiition strtegies. We understand that HCFA is planning a
           demonstration project involving competitive bidding for durable medical
           equipment , prosthetics , orthotics , and supplies in Southern Florida, and has
           long sought the legislative authority to use such strategies for certain medical
           equipment and supplies. Through demonstrations or expanded legislative
           authority from the Congress , we suggest that HCFA use opportunities as they
           become available to acquire enteral nutrition products through competitive
           acquisition strategies.

AGENCY COMMNT

Both HCFA and the Assistance Secretary for Plannng and Evaluation concurred with
our recommendation. The HCFA stated that currently the calculation for determining
Medicare s payments for enteral nutrition products is mandated by legislation.
However, HCFA reported that the President s Balanced Budget proposal includes
provisions to freeze parental and enteral nutrition prices at 1993 levels until the year
2002. The proposal would also require the Secretary to competitively contract for
certain servces and supplies including enteral nutrients. The full text of HCFA'
comments are provided in Appendix A.
APPENDIX A




AGENCY COMMNTS
                               ,,,, 



  DEPARTMENT OF HEALTH &. HUMAN SERVICES                                  Health Care Financing Administration





                                                                         The Administrator
                                                                         Washington. D. C. 20201





DATE:           FE 2 a
TO:           June Gibbs Brown
              Inpector General 1,
                                              if V 




FROM:	        Bruce C. VIade
              Admstrator            'l V­
SUBJECT: Offce of Inspector General (OIG) Draf Report: "Payment for Entera
             Nutrtion: Medicare and Other Payers       " (OEI- 03- 94- 00021)

We reviewed the subject report which conta inormation on Medicare pricing policies
relative to enteral nutrtion products. Ths report is supportve of the policy diection the
Health Care Financing Admstration has been pursuig.

Our detaed comments on     the report fidigs and recommendations are attched for your
consideration. Than you for the opportty to review and comment on ths report.
Please contact us if you would lie to discuss our comments.

Attachment




                                            A- 2

OIG Recommendation


HCF A should reduce payments for enteral nutrtion, either across the board or for certai
categories of enteral nutrtion products.

HCF A Response


We concur. As mandated by legislation, reimbursement for enteral products is based on
reasonable chage pricing methodology rather    th  competitive acquisition strategies.
                                                                                       , the
Ths mandated price calculation does not permt such flexibilty in pricing. However
President's Balanced Budget proposal includes provisions to freeze parenteral and enteral
nutrtion prices at 1993 levels unti the year 2002. If ths legislation is enacted, Medicare
payments will declie relative to pharacy prices.

OIG Recomrendation


Use enteral nutrtion as one of the fist product tyes    to acquie under   new competitive
acquisition strategies.

HCF A Response


We concur. RCF A has long sought legislative authority to use competitive biddig
strategies for   cert medical equipment and supplies. The President s Balance Budget
proposal includes provisions that would alow HCF A to use competitive acquisition
strategies for these items. As . described in section 11464 of the Bil , the Secreta would
be requied to competitively contract for certai servces and supplies in a geographic
area. Intial items would include enteral and parenteral nutrents , supplies and equipment,
and MRs and CAT scan. The Secreta could add other items in the futue as
appropriate. If the competitive biddig system did not result in a reduction of at least 15
percent in prices of selected servces compared to calendar year 1997 levels , the Secreta
would reduce fee schedule amounts sufciently     to achieve the 15 percent price discount.




                                               A - 3€
